June 16, 2010

DAVID E. WILLIAMS
VICE PRESIDENT, ENGINEERING

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT: Audit Report – Delivery Vehicle Replacement Strategy
         (Report Number DA-AR-10-005)

This report presents the results of our audit of the Delivery Vehicle Replacement
Strategy (Project Number 10YG005DA000). We undertook this self-initiated review to
determine if the Postal Service has a viable and effective vehicle replacement strategy
— viable as it relates to financial operational practicality and effective as it relates to the
financial risks associated with an aging delivery fleet. See Appendix A for additional
information about this audit.

The Postal Service has approximately 189,000 delivery vehicles made up of minivans,
sport utility vehicles (SUVs), flex fuel, and long-life vehicles (LLVs). The majority of the
Postal Service's delivery fleet are nearing the end of their 24-year life expectancy.
Because of limited capital resources, the Postal Service has delayed its planned
purchase of delivery vehicles until fiscal year (FY) 2018. The Postal Service faces the
same capital challenges after 2018, as forecasts show continuing shortfalls.

Conclusion

The Postal Service has successfully maintained its LLV delivery vehicle fleet in safe,
working condition for over 20 years. They attribute this success to a robust preventive
maintenance program, as well as a “fix as fails” strategy that we found to be
operationally viable and generally cost effective. However, analysis of delivery vehicle
costs shows that this strategy would not be cost-effective for fleet vehicles the Postal
Service will have to replace soon. These vehicles consist of 19,257 LLVs, with an
average annual maintenance cost in excess of $5,600 for FYs 2008 and 2009. Incurring
maintenance costs at this rate, the “fix as fails” strategy costs $342 million1 more than it
would cost to purchase new vehicles.



1
    Fund Put to Better Use - Funds that could be used more efficiently by implementing recommended actions.
Delivery Vehicle Replacement Strategy                                           DA-AR-10-005



This opportunity exists because the strategy as implemented often circumvents the
service life and maintenance reinvestment guidelines.2 These guidelines require that
before initiating any extensive vehicle repair, Vehicle Maintenance Facilities (VMFs)
must assess maintenance reinvestment by providing complete documentation of
expected maintenance costs, the condition of all major components, and a cost analysis
justifying the decision to repair. This information is to be documented on Postal Service
(PS) Forms 4587, “Request to Repair, Replace, or Dispose of Postal Service-Owned
Vehicles”, and it is to be submitted for district management approval before the repair is
made. We found that this control was circumvented and costly repairs were made
because the assessments were not complete and lacked district management approval.
In addition, the Handbook PO-701 does not require that cumulative maintenance
reinvestments are monitored beyond district levels. Without this control, maintenance
intensive vehicles are not apparent to area and headquarters managers. See Appendix
B for our detailed analysis of this issue.

We recommend the vice president, Engineering:

1. Replace maintenance intensive vehicles beginning in fiscal year 2011.

2. Reemphasize to vehicle maintenance and district managers the reinvestment
   threshold, the importance of completing PS Forms 4587 to include cumulative costs,
   and the need to obtain required approvals as detailed in Handbook PO-701.

3. Monitor maintenance intensive delivery vehicles at the area level.

Management’s Comments

Management agreed with our recommendations and will develop a (replacement) plan
to present to the Capital Investment Committee. They will also issue a Vehicle
Maintenance Bulletin to reiterate policy that will include maintenance monitoring
standards. They indicated they would complete all actions by December 2010. While
management also agreed with the monetary impact presented, they contend that the
following factors may affect our cash flow analysis:

         Increased maintenance costs in consecutive years are coincidental.

         Major repairs drive up annual costs, but are lower in subsequent years.

         Costs for accidents would occur even if vehicles had been replaced.

In addition, in reference to our presentation of the “fix as fails strategy” they indicated
the maintenance guidelines do not establish an annual maintenance threshold as the
recommended point for the disposal of vehicles. The maintenance threshold of $3,500

2
    Handbook PO-701, Fleet Management




                                              2
Delivery Vehicle Replacement Strategy                                         DA-AR-10-005



establishes a local trigger to assist in the decision to repair, replace or dispose an
individual vehicle. Lastly, management clarified the report does not weigh the
operational impacts driving the decision to maximize retaining right-hand drive delivery
vehicles and that a replacement plan for 19,257 vehicles would require capital approval
and a 2 to 3 year lead-time. We have included management comments, in their entirety,
in Appendix F.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report. In reference to management’s points
regarding our cash flow analysis, we note our conclusion is similar to a FY 2005
contractor study provided by the Postal Service. That study concluded that Postal
Service’s proposed replacement program with no delays offered the lowest net present
value as maintenance costs were growing with the age of the fleet. Our report
substantiates that maintenance costs are continuing to grow and that there is a financial
benefit to replace a segment of the fleet earlier than FY 2018. As such, we believe the
maintenance cost factor used in our cash flow analysis cannot be attributed to mere
coincidence. With respect to major repairs and accident costs, we acknowledge they
influence maintenance averages, however, the Vehicle Maintenance and Accounting
System does not separately track costs for major repairs and accidents to validate
management’s assertion.

We do not disagree with management assertions that the maintenance threshold is a
guide to assist in the decision to repair, replace, or dispose of vehicles or that
operational need may drive the decision to retain vehicles. Rather, the intent of our
report is to point out the increased cost of the current strategy to replace maintenance
intensive vehicles beginning in FY 2018.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            3
Delivery Vehicle Replacement Strategy                                      DA-AR-10-005



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachment(s)

cc: Steven J. Forte
    Edward L. Gamache
    J. Otis Smith
    Sally K. Haring




                                           4
Delivery Vehicle Replacement Strategy                                             DA-AR-10-005



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has approximately 189,000 delivery vehicles made up of minivans,
SUVs, flex fuel vehicles, and LLVs. The Postal Service deployed the majority of the
delivery fleet (142,000 right-hand drive LLVs) between 1987 and 1994. These vehicles
are nearing the end of their 24–year life expectancy and are between 16 and 23 years
old. In FY 2008, maintenance costs totaled about $515 million and in FY 2009 they
increased 2 percent, to about $524 million. Individual annual vehicle repair costs were
as high as $43,000.

In 2005, the Postal Service was poised to purchase new delivery vehicles. Since that
time, the economic realities limited capital funding and they decided to delay vehicle
purchases until FY 2018. At that point, the LLVs will be between 24 and 31 years old.
According to projections, the Postal Service will face similar challenges after 2018 as
their forecasts show that by 2020 they will still be facing significant capital shortfalls.

The Postal Service has internal controls in place that allow managers to monitor
maintenance costs. Handbook PO-701 establishes the service life and maintenance
reinvestment guidelines of the delivery vehicle fleet. It establishes a maintenance
reinvestment threshold of 20 percent of the vehicle contract price for LLVs aged 13 to
24 years.3 The handbook also requires that if there is a need for extensive repairs, an
assessment of the maintenance reinvestment needs to be performed, documented on
PS Form 4587, and elevated to the motor vehicle manager and the district manager or
his representative for approval. This includes any request for repair, replacement or
disposal of a vehicle.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service has a viable and effective
vehicle replacement strategy. To accomplish our objective, we interviewed vehicle
operations managers at both Postal Service Headquarters and selected field locations.
We observed maintenance operations at vehicle maintenance facilities and obtained
documentation in support of a sample of repaired vehicles.

We used data from the Vehicle Maintenance and Accounting System (VMAS) to identify
maintenance costs for delivery vehicles. Readily accessible system data was limited to
FYs 2008 and 2009. We assessed the reliability of VMAS data by interviewing Postal
Service officials knowledgeable about the data. We determined that the data were
sufficiently reliable for the purposes of this report.



3
    See Appendix E




                                              5
     Delivery Vehicle Replacement Strategy                                                  DA-AR-10-005




     We conducted this performance audit from October 2009 through May 2010 in
     accordance with generally accepted government auditing standards and included such
     tests of internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objective. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objective. We discussed our
     observations and conclusions with management officials on March 25, 2010, and
     included their comments where appropriate.

     PRIOR AUDIT COVERAGE

                                               Final
                           Report             Report         Monetary
   Report Title            Number              Date           Impact            Report Results
Vehicle                DR-AR-09-007          6/30/2009       $40,505,382   The Postal Service’s VMAS
Maintenance                                                                did not include all
Facilities                                                                 commercial repair costs
Scheduled                                                                  necessary to ensure
Maintenance -                                                              appropriate fleet decisions.
National Capping                                                           During FY 2008,
Report                                                                     approximately 31 percent of
                                                                           repair and maintenance
                                                                           costs were not captured in
                                                                           the VMAS. Management
                                                                           agreed with the findings and
                                                                           the recommendations.
Electrification of     DA-WP-09-001          8/28/2009         None         Although operationally
Delivery Vehicles                                                           feasible, additional funding
                                                                            options are likely to be
                                                                            needed to promote testing
                                                                            of electric vehicle
                                                                            technology within the Postal
                                                                            Service fleet. We made no
                                                                            recommendations to Postal
                                                                            Service management.




                                                         6
Delivery Vehicle Replacement Strategy                                           DA-AR-10-005



                            APPENDIX B: DETAILED ANALYSIS

Postal Service Efforts to Sustain its Delivery Fleet Are Viable and Generally Cost
Effective

The Postal Service requires specialized, right-hand drive vehicles for the majority of its
delivery fleet. However, there are no right-hand drive vehicles available commercially for
lease or purchase that would meet the Postal Service’s needs. The Postal Service
estimates replacing the LLV fleet would cost approximately $4.2 billion or $30,000 per
vehicle. Without the capital resources to purchase a new vehicle fleet, the Postal
Service has delayed its planned purchase of delivery vehicles until FY 2018 and must
weigh the operational impacts of a decision to maintain or maximize the retention of the
current fleet. In the meantime, the Postal Service attributes a successful preventive
maintenance program and its adoption of a “fix as fails” strategy as a short-term means
of ensuring that its delivery vehicles remain operational. We generally agree with
management’s assertions for the following reasons:

       While the cost of maintenance is continuing to increase as vehicles age, the
        annual maintenance cost for the majority of the delivery fleet (74 percent) is
        below the reinvestment threshold of $3,500.

       The Postal Service has contractors in place to supply parts as needed.

       Considering the Postal Service’s economic condition, it is less costly in the short
        term to maintain the aging delivery fleet than to replace it.

However, as the fleet ages the “fix as fails” strategy is becoming less advantageous. In
2018, 88 percent of the delivery fleet will be at or beyond the projected end of service
life with some LLVs being up to 31 years old. It is unclear how long or at what cost fleet
support can be sustained. In the long-term, the Postal Service will be exposed to more
financial and operational risks as the delivery fleet will be more costly to maintain. While
the current strategy is generally effective for the majority of the delivery fleet, this
strategy is not effective for those in need of significant levels of maintenance, as
discussed in the next section.

A Segment of the Delivery Fleet Warrants Earlier Replacement

We reviewed VMAS data to stratify the vehicle fleet according to the levels of repair
costs incurred each year. We identified a segment of delivery vehicles for which the
average cost of maintenance exceeded the investment threshold of $3,500 in two
consecutive years. The average maintenance cost for this segment was over $5,600
for each of these fiscal years. This segment consisted of 19,257 LLVs, or 10 percent of
the delivery fleet. Maintenance costs for this segment were $108 million in FY 2008 and
$109 million in FY 2009, consuming approximately 21 percent of the fleet maintenance




                                              7
Delivery Vehicle Replacement Strategy                                                                DA-AR-10-005



cost.4 If the Postal Service continues the “fix as fails” strategy through 2018 and
maintenance costs continue to increase, it would be more cost-effective for the Postal
Service to replace this segment before 2018. Our 10-year cash flow analysis shows the
net present value (NPV) of replacing this segment beginning in 2011 is lower by
$342,127,370.5 See Appendix C for a detailed cash flow analysis.

The “Fix as Fails” Strategy Circumvents Maintenance Internal Controls

Handbook PO-701 establishes the service life and maintenance reinvestment guidelines
of the delivery vehicle fleet.6 Management has established the maintenance threshold
for reinvestment at approximately $3,500 per vehicle. At this threshold, vehicle
maintenance facility (VMF) managers must assess the maintenance reinvestment by
completing a PS Form 4587, which specifies the decision to repair, replace or dispose
of a vehicle. VMF and district managers must concur on any decision to exceed the
guidelines.

To test the effectiveness of this control, we requested PS Forms 4587 for vehicles that
received extensive repairs at VMFs in the North Jersey district. We selected the North
Jersey district because of the high number of vehicles that exceeded $10,000 in
maintenance costs, and because logistically, the location would allow for a physical
review of the repaired vehicle and supporting data. Of the 83 forms provided, we found
that:

       None had complete cost analysis sections.

       District approvals were not obtained for 75 vehicles that exceeded reinvestment
        thresholds.

For example, a PS 4587 form was completed showing an estimated cost of $5,000 to
replace a junk body and chassis. For this estimated one-time repair cost, the analysis
was not complete and there was no district approval, although the FY 2009 expenditure
on this vehicle was over $36,000.

As depicted in Figures 1 and 2, for FY 2009, 49,569 vehicles (or 26 percent of the
delivery fleet nationwide) met or exceeded the maintenance reinvestment threshold of
$3,500 and required the completion of a reinvestment assessment. This reflects only a
small portion of the fleet, however it accounts for about $269 million (or 51 percent) of
the total delivery fleet maintenance cost. Headquarters maintenance indicated that


4
  Total maintenance cost for the delivery fleet in FY 2008 was $514,846,613. The $108 million represents 21 percent
of total FY 2008 delivery fleet maintenance costs. For FY 2009, total maintenance costs were $523,785,954 with
$109 million or 21 percent of total maintenance costs being consumed for this group of vehicles.
5
  We incorporated interest expense as a separate cash flow line item. Postal Service considers interest expense as
part of the cost of capital discount rate. Postal Service’s approach increases the net present value.
6
  Handbook PO-701 states that for vehicles in years 13 – 24 of their service life, the threshold for maintenance
reinvestment requiring completion of PS Form 4587 remains at 20 percent of the vehicle’s contract price.




                                                         8
Delivery Vehicle Replacement Strategy                                       DA-AR-10-005



vehicle costs above the reinvestment threshold do not provide sufficient assurance that
the internal controls (PS Forms 4587) for vehicle repair are effective.

Figure 1




Figure 2




                                           9
Delivery Vehicle Replacement Strategy                                                       DA-AR-10-005




Maintenance managers indicated reinvestment criterion was applicable on a per repair
basis rather than a cumulative yearly total. This interpretation of the guidelines allowed
VMF managers to completely rebuild vehicles and spend unlimited amounts to repair a
single vehicle by simply submitting individual requests for component repairs that were
part of an overall rebuild. For example:

       A VMF spent $43,000 to rebuild one vehicle in FY 2008 and another spent
        $38,000 on repairs to a vehicle in FY 2009. These amounts are substantially
        more than the $30,000 the Postal Service estimates a new specialized vehicle
        would cost.




        Vehicles are being completely reassembled to include frame, engine, transmission, and body shell.
         Available data shows 613 vehicle frames were replaced in FY 2008 and 2,250 frames in FY 2009.

VMF managers stated that they typically rebuild vehicles when they replace a frame.
We note that managers at VMFs have the authority to make repairs they deem
necessary within their respective budgets. The maintenance policy requires only district
or motor vehicle manager approval before any extensive vehicle repairs or disposals
are initiated.

Fleet Replacement Strategies

The Postal Service has the largest civilian fleet in the world, with the majority of the
vehicles used for delivery. The Postal Service is unique in its size and its need for
specialized right-hand drive vehicles. In an effort to compare the Postal Service’s
replacement strategy to a standard for the industry, we benchmarked the General
Services Administration (GSA) and Canada Post. Although Canada Post has some
right-hand drive vehicles, they number approximately 2,200 out of a total fleet of
approximately 7,000 vehicles.




                                                   10
    Delivery Vehicle Replacement Strategy                                                         DA-AR-10-005



    The GSA usually manages fleet purchases for federal agencies and, as presented in
    Figure 3, their replacement policy indicates comparable light trucks are replaced at 7
    years or 65,000 miles. Likewise, Figure 4 shows that Canada Post has an expected end
    of life of approximately 16 years or 160,000 kilometers (approximately 99,419 miles) for
    carrier vehicles. Both benchmarked organizations replace vehicles earlier than the
    service life strategy adopted by Postal Service. See Appendix E for Postal Service
    vehicle service life and maintenance reinvestment guidelines.

    Figure 3

            Vehicle Category                        Type                GSA Replacement Criteria
                                                                          Years       Miles
            Light Trucks < 12,500           Non-Diesel        4X2           7        65,000
            Pounds                          Diesel            4X2           8        150,000



        The GSA and Canada Post have shorter replacement criteria for their fleets than the Postal Service.


    Figure 4


                                                                            Average           Replacement
                           Primary Use            Type          Number
                                                                              Age               Criteria

                                                   Fuel
                                                 Efficient                                 9 Yrs/160,000 kms
                          Letter Carrier                            2          2.1
                                                  Light                                      (99,419 miles)
                                                 Vehicles
 
                           Mail Service                                                   15 Yrs/250,000 kms
                                                Step Van         2,686         6.1
                             Carrier                                                        (155,342 miles)
 




                                               Right Hand
                                                                                          16 Yrs/160,000 kms
                          Letter Carrier          Drive          2,204         14.2
                                                                                             (99,419 miles)
 
                                                 Vehicle
 
                                                  Light                                    9 Yrs/160,000 kms
                          Letter Carrier                         1,688          6
                                                 Vehicles                                    (99,419 miles)
 




                                                         11
Delivery Vehicle Replacement Strategy                                                               DA-AR-10-005



 APPENDIX C: EXCERPTS: CASH FLOW ANALYIS OF MAINTENANCE INTENSIVE SEGMENT (FUNDS PUT TO BETTER USE)




        Net Present Value (NPV) difference of OIG recommendation is $342,127,370 less than Postal Service plan.




                                                                 10
                                                       Restricted Information
Delivery Vehicle Replacement Strategy                                      DA-AR-10-005

                        APPENDIX D: CASH FLOW ASSUMPTIONS

We used the following assumptions in calculating the monetary impact:

                      Assumptions
2010 cost of fuel per gallon                                      $2.79
Energy-related cost items annual escalation
                                                                  2.7%
factor
All other costs annual escalation factor                          2.0%
Average number of operating days per year                         303
Average miles per gallon fuel for existing
                                                                   10
vehicle
Average miles per gallon fuel for replacement
                                                                   12
vehicle
Average miles driven per day                                      17.3
Assumed annual increase in maintenance cost,
                                                                 1.79%
existing vehicles
Postal Service cost of borrowing/discount rate                    3.5%
Cost of replacement vehicle, 2011                                $30,000
Estimated disposal value of existing LLVs per
                                                                  $500
vehicle, 2011
Annual average cost for maintenance intensive
                                                                 $5,652
segment per vehicle




                                                  11
                                        Restricted Information
Delivery Vehicle Replacement Strategy                                            DA-AR-10-005



                                        APPENDIX E: VEHICLE SERVICE LIFE TABLE




                                                             12
                                                   Restricted Information
Delivery Vehicle Replacement Strategy                            DA-AR-10-005



                        APPENDIX F: MANAGEMENT’S COMMENTS




                                                  13
                                        Restricted Information
Delivery Vehicle Replacement Strategy        DA-AR-10-005




                                        14
Delivery Vehicle Replacement Strategy        DA-AR-10-005




                                        15
